     Department of Homeland Security




    FEMA Hazard Mitigation Grant Program Funds 

      Awarded to Panhandle Regional Planning 

            Commission, Amarillo, Texas 





DD-12-03                                   November 2011

                                                             Office a/Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                    NOV 1 7 2011

MEMORANDUM FOR:               Tony Russell
                              Regional Administrator, Region VI
                              Federal Emergenc Management Agency

FROM:                         Matt Jadacki
                              Assistant Inspect r Gen ral
                              Office of Emergency Management Oversight

SUBJECT:                      FEMA Hazard Mitigation Grant Program Funds Awarded to
                              Panhandle Regional Planning Commission, Amarillo, Texas
                              FEMA Disaster Number 1606-DR-TX
                              Audit Report Number DD-12-03

We audited Hazard Mitigation Grant Program (HMGP) funds awarded to the Panhandle
Regional Planning Commission (Commission) in Amarillo, Texas. Our audit objectives were to
determine whether the Commission accounted for and expended Federal Emergency
Management Agency (FEMA) grant funds according to federal regulations and FEMA
guidelines, the project met FEMA eligibility requirements, and project management complied
with applicable regulations and guidelines.

The Texas Division of Emergency Management (TDEM), a FEMA grantee, awarded the
ComII\ission $8.6 million ($4.3 million federal share). TDEM selected the Commission's project
for submission to FEMA from applications it received following Hurricane Rita, which occurred
in September 2005. The purpose of the award was to encourage homeowners in the Texas
Panhandle to pmticipate in the Commission's Residential Safe Room Construction project.

The award provided FEMA funding for 50% of eligible project costs. At the time of our audit,
the Commission had completed the project, but FEMA and THEM had not yet closed it. The
audit covered the period from project submittal in February 2006 to the completion of our audit
work in October 2011. During this time, the Commission claimed $7.7 million in direct project
costs. We audited 100% of the costs claimed for the project.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objectives. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.
We interviewed FEMA, TDEM, and Commission officials; reviewed judgmentally selected
samples of project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objectives. We did not assess the adequacy of the
Commission’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objectives. However, we did gain an understanding of the Commission’s
methods of accounting for project-related costs and its procurement policies and procedures.


                                            BACKGROUND

FEMA provides HMGP grants on a cost-shared basis to eligible applicants within a state
declared eligible for federal assistance to implement measures designed to reduce the loss of life
and property from natural disasters. FEMA’s eligibility criteria require that an applicant have a
FEMA-approved hazard mitigation plan and that projects be cost effective, comply with
environmental and historic preservation requirements, and provide a long-term beneficial impact.
Eligible applicants include state and local governments, certain private nonprofit organizations
and institutions, and Indian tribes or tribal organizations.

The Commission is a voluntary association of cities, counties, and special districts in the Texas
Panhandle. As a council of governments, the Commission meets HMGP eligibility under
44 CFR 206.2(a)(16) as a local government. With HMGP grant funds, the Commission
implemented the Residential Safe Room Construction project. The project reimbursed individual
property owners up to $2,500 for the construction of a windstorm safe room to provide
protection during a short-term, high-wind event such as a tornado or hurricane.




  Figure 1. Aboveground safe room. 

  Source: Department of Homeland Security Office of Inspector General site visit, May 11, 2011.





                                                      2

      Figure 2. In-ground safe room. 

      Source: Department of Homeland Security Office of Inspector General site visit, May 11, 2011.



                                           RESULTS OF AUDIT

The Commission accounted for and expended FEMA funds according to federal regulations and
FEMA guidelines; the project met FEMA eligibility requirements; and project management
complied with applicable regulations and guidelines.


                                DISCUSSION WITH MANAGEMENT

We discussed the results of our audit with FEMA, TDEM, and Commission officials during our
audit. We also provided a draft report and discussed it with these officials at exit conferences
held on October 11, 2011. These officials agreed with the audit results. Because the audit did
not identify issues requiring further action from FEMA, we consider this audit closed and do not
require a response.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this final
report will be posted to our website. Significant contributors to this report were Tonda Hadley,
Moises Dugan, Lori Smith, and Jacob Farias.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.


cc:      	Administrator, FEMA
         Audit Liaison, FEMA (Job Code G-11-032)
         Audit Liaison, FEMA Region VI
         Audit Liaison, DHS




                                                        3

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
